No. _________
In The

Supreme Court of the United States

OLGA PAULE PERRIER-BILBO;

Petitioner,

v.

UNITED STATES, L. FRANCIS CISSNA, DIRECTOR, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES;
Respondents.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI
NOTICE OF ERRATUM
On page 17 of Olga Perrier-Bilbo’s PETITION FOR WRIT OF CERTIORARI (at
the first line of the second paragraph of the Petition’s CONCLUSION) the filed
paper copy had the word “Supremacism.” The word should have been “Supremacist”
and it has been changed in the electronically filed copy.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ - Michael Newdow

September 15, 2020

MICHAEL NEWDOW
Post Office Box 248
Nice, CA 95464
(626) 532-7694
NewdowLaw@gmail.com
Counsel of Record for Petitioner
Olga Paul Perrier-Bilbo

